DOE/IG-0529




               AUDIT             ACCOUNTING FOR GOVERNMENT-
              REPORT               OWNED NUCLEAR MATERIALS
                                 PROVIDED TO NON-DEPARTMENT
                                     DOMESTIC FACILITIES




                                        OCTOBER 2001




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                       U.S. DEPARTMENT OF ENERGY
                            Washington, DC 20585

                                 October 26, 2001




MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Accounting for
                          Government-Owned Nuclear Materials Provided to Non-
                          Department Domestic Facilities"

BACKGROUND

Beginning in the 1950s, the Department of Energy (Department) and its predecessor
agencies provided certain nuclear materials -- including plutonium and uranium -- to other
government agencies, academic institutions, and commercial facilities. These materials,
provided via loan or lease under authority granted by the Atomic Energy Act of 1954, were
to be used for research, medical purposes, or projects consistent with the Department's
mission. As of September 30, 2000, the Department had nuclear materials at over 300 non-
Department domestic facilities.

The Department and Nuclear Regulatory Commission (NRC) share responsibility for
nuclear materials provided to licensees, including accounting for the material and tracking
its location. The Nuclear Materials Management and Safeguards System (NMMSS) is an
electronic database used by these organizations to assist them in carrying out their
respective responsibilities. During our audit of the Department's Fiscal Year 2000 Financial
Statements, the Office of Inspector General identified apparent inaccuracies in NMMSS.
Moreover, problems with the validity of NMMSS records associated with materials held by
domestic licensees were highlighted in prior internal reports. Based on these concerns, we
initiated this audit to determine whether the Department can account for nuclear materials
provided to domestic licensees.

RESULTS OF AUDIT

The Department could not fully account for nuclear materials loaned or leased to domestic
licensees. According to NMMSS records:

   §   Substantial amounts of nuclear materials were reported to be at two licensed
       facilities that no longer existed;

   §   Several licensee facilities carried balances that were not logical and could not be
       adequately explained or reconciled; and,

   §   Records were incomplete in that they did not contain information on all
       Government-owned nuclear materials provided to licensees.
                                              -2-


These problems occurred and persisted because the Department did not provide adequate
oversight of the system. Nor was there effective coordination with the NRC on these matters.
We could not determine to what extent this was simply a matter of inaccurate NMMSS record
keeping; thus, we concluded that the potential exists that these materials may not be
adequately safeguarded. In addition to questions of security, the problems in NMMSS
inventory data undermine the Department's material disposition planning efforts.
Accordingly, we provided a series of recommendations designed to ensure that the
Department: undertake a complete confirmation of Government-owned nuclear materials held
by domestic licensees; enhance its oversight and control of nuclear material placed with non-
Departmental domestic sources; and, improve coordination with the NRC on these matters.

During the course of the audit, the Department acted to assign responsibility for the accuracy
of NMMSS inventory data to the Office of Plutonium, Uranium and Special Materials
Inventory within the Office of Security and Emergency Operations. That office has started a
process to correct the inaccurate NMMSS records. This is an important first step; however,
the Department needs to establish a comprehensive corrective action plan, including
appropriate performance metrics, to fully account for nuclear materials loaned or leased to
domestic licensees. In order to carry out such a corrective action plan, the Department will
need the full cooperation of the NRC and its licensees. We have referred issues raised in this
report to the Office of Inspector General at the NRC for their consideration. Although we
found no indication that any materials had actually been diverted or misused, NMMSS
represents, in our judgment, an important tool for maintaining the strictest possible control
over materials that could, in the wrong hands, threaten national security.

MANAGEMENT REACTION

Management concurred with the finding and all recommendations and has developed a
corrective action plan.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary for Energy, Science and Environment
    Director, Office of Security and Emergency Operations
ACCOUNTING FOR GOVERNMENT-OWNED NUCLEAR MATERIALS
PROVIDED TO NON-DEPARTMENT DOMESTIC FACILITIES


TABLE OF
CONTENTS




               Overview

               Introduction and Objective .................................................................... 1

               Conclusions and Observations .............................................................. 1


               Accounting for Government-Owned Nuclear Materials
               Provided to Non-Department Domestic Facilities

               Details of Finding .................................................................................. 3

               Recommendations and Comments ........................................................ 8


               Appendices

               1. Scope and Methodology ................................................................ 10

               2. Management Comments ................................................................ 11
Overview
INTRODUCTION AND   Chapter 4 of the Atomic Energy Act of 1954 (Act) established a
OBJECTIVE          national priority to ensure the continued conduct of research and
                   development activities relating to nuclear theory, processes, materials,
                   and devices. The Act envisioned the use of nuclear and radioactive
                   material to advance the state of knowledge in medical, biological,
                   agricultural, health, and military venues. As such, the Atomic Energy
                   Commission, now the Department of Energy (Department), was
                   encouraged to work with colleges, universities, hospitals, and other
                   organizations to carry out research in these areas. Based on this
                   authority, the Department and its predecessor agencies developed loan
                   and lease procedures that provided nuclear materials to other
                   government agencies, academic institutions, and commercial facilities.
                   As of September 30, 2000, such materials were held by over 300
                   non-Department domestic facilities.

                   Currently, non-Department entities are licensed to hold nuclear material
                   by the Nuclear Regulatory Commission (NRC)1. The NRC licensee is
                   generally responsible for assuring the safety of its facilities and
                   safeguarding its nuclear materials with NRC oversight. While the
                   Department shares responsibility with NRC for accounting for and
                   tracking the material, the Department maintains ownership of the
                   material, manages the contract for Nuclear Materials Management and
                   Safeguards System (NMMSS) operations, and is solely responsible for
                   its final disposition.

                   During our audit of the Department’s Fiscal Year (FY) 2000 financial
                   statements, the Office of Inspector General identified apparent
                   inaccuracies in NMMSS, the Department’s database designed to
                   account for all nuclear materials. In particular, we noted discrepancies
                   associated with the NMMSS-generated material balances held by
                   domestic licensees. Although the inaccuracies did not materially affect
                   the Department’s balance sheet as a whole, we were concerned that any
                   inaccuracies in NMMSS could indicate a weakness in controls over
                   potentially dangerous materials. Based on these concerns, we initiated
                   this audit to determine whether the Department can account for nuclear
                   materials provided to domestic licensees.


CONCLUSIONS AND    The Department could not fully account for nuclear materials loaned or
OBSERVATIONS       leased to domestic licensees. According to NMMSS records,
                   substantial amounts2 of nuclear materials were located at two

                   1
                    In certain cases, NRC sponsors an Agreement States Program under which the state
                    where the facility resides acts as the regulatory authority for specific types and
                    quantities of materials.
                   2
                     Specific quantities are not listed in this report due to classification concerns.

Page 1                                                             Introduction and Objective/
                                                                Conclusions and Observations
         licensed facilities that no longer existed; several licensed facilities
         carried negative balances that were not logical and almost certainly
         incorrect; and records were incomplete in that they did not contain
         information on all reportable Government-owned nuclear materials
         provided to licensees. These problems occurred and persisted because
         the Department did not provide adequate oversight of the system and
         effectively coordinate with the NRC.

         Without accurate NMMSS inventory data, the potential exists that
         NMMSS will not be effective in helping to determine whether loaned or
         leased Government-owned nuclear material is lost or stolen. Also, until
         it confirms licensees’ continuing need for materials that, in some cases,
         have been in the hands of the licensees for many years, the Department
         cannot adequately plan for the final disposition of the materials.

         This audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.




                                                      (Signed)
                                              Office of Inspector General




Page 2                                         Conclusions and Observations
ACCOUNTING FOR GOVERNMENT-OWNED NUCLEAR MATERIALS
PROVIDED TO NON-DEPARTMENT DOMESTIC FACILITIES

NMMSS Inaccuracies   Errors, inconsistencies, and omissions in NMMSS precluded the
                     Department from fully accounting for nuclear materials loaned or
                     leased to domestic licensees. For example, NMMSS data indicated that
                     substantial amounts of plutonium were located with two licensees
                     whose facilities no longer existed. NMMSS also contained at least 180
                     anomalous negative balances3 associated with Government-owned
                     material at 119 domestic licensee locations. Finally, information
                     regarding some licensee inventories of nuclear materials was missing
                     from NMMSS.

                                            Facilities No Longer in Existence

                     NMMSS inventory records indicated that significant quantities of
                     Government-owned special nuclear material were held by at least two
                     NRC licensees despite the fact that the facilities no longer existed. In
                     the first instance, NMMSS showed a significant quantity of plutonium
                     at a particular facility as of September 30, 2000. NRC officials told us,
                     however, that the facility had not held plutonium since 1996. Neither
                     NRC nor the Office of Security and Emergency Operations (Security
                     Operations) could explain the discrepancy. While officials in Security
                     Operations believed that the material in question could be accounted for
                     as part of the waste stream from the decontamination and
                     decommissioning of the facilities, documentation to show what
                     happened to the material after 1996, or where it is now, was not
                     available at the time of our audit. Subsequent to our raising this issue,
                     the contractor responsible for NMMSS proposed deleting these
                     balances. However, NRC requested that Security Operations not adjust
                     the balances until it could resolve the inventory discrepancy with the
                     licensee.

                     In the second instance, NMMSS showed that a licensee also held a
                     significant quantity of Government-owned plutonium at a processing
                     plant that no longer existed. NRC officials said the plant’s license had
                     been terminated in 1993 and that no material was at this location.
                     Again, neither responsible Security Operations officials nor the NRC
                     could provide an explanation for the NMMSS discrepancy.

                     Because our review was limited, we may not have detected all instances
                     where NMMSS records of material balances were inconsistent with the
                     facility records of license termination or facility closure.



                     3
                      Out of a total of 1,050 records associated with domestic licensees.

Page 3                                                                               Details of Finding
                                        Negative Balances

         During our audit of the Department’s FY 2000 financial statements, we
         noted that NMMSS contained a number of negative balances. Such
         balances are not logical and almost certainly incorrect. Accepted at
         face value, a negative balance would indicate that the Department
         received back from a licensee more material than was originally
         provided. Security Operations officials told us that this was an unlikely
         scenario. They believed, instead, that incorrect ownership codes used
         when the materials were transferred to another location led to the
         negative balances.

         As illustrated in the following table, as of September 30, 2000, a
         NMMSS-generated report contained 180 negative balance inventory
         records concerning 12 different Government-owned nuclear materials at
         119 domestic licensee locations.

                              NMMSS Negative Balances:
                                 Government-Owned
                      Nuclear Materials Held by Domestic Licensees

                                     Negative                            Department
            Material Type            Records       Negative Balances     Reportable
                                                                         Quantity*
            Depleted Uranium            47               4,219,961 kg    1 kilogram
            Enriched Uranium            35               1,304,245 gm    1 gram
            Plutonium                   35                  2,500 gm     1 gram
            Normal Uranium              23                 108,184 kg    1 kilogram
            Californium                 17                 106,549 µg    1 microgram
            Plutonium-238                8                  42.80 gm     1 tenth of a gm
            Thorium                      6                  63,869 kg    1 kilogram
            Uranium-233                  3                  2,217 gm     1 gram
            Americium                    2                      7 gm     1 gram
            Tritium                      2                    .11 gm     1 hundreth of a gm
            Deuterium**                  1                      .8 kg    1 tenth of a kg
            Neptunium                    1                      8 gm     1 gram
            TOTAL                       180

             *
              Quantity required for reporting in NMMSS
            **
              Isotope weight




Page 4                                                                  Details of Finding
         We visited one licensee associated with some of the negative records
         and confirmed that coding errors, in these instances, led to NMMSS
         inaccuracies. Without further confirmation, however, explanations for
         the remaining negative balances remain uncertain.

         To its credit, in April 2001, Security Operations began to reconcile all
         negative inventory balances associated with domestic licensees. As of
         September 2001, according to Security Operations officials, all 35
         plutonium negative balances had been resolved and the NMMSS
         balances corrected. Efforts to resolve the uranium negative inventory
         balances had begun and were ongoing at the conclusion of our audit.

                                      Incomplete Records

         NMMSS did not contain information on all sealed sources4 of nuclear
         material in the hands of licensees. We noted two instances where
         NMMSS did not contain information on sealed sources of plutonium/
         beryllium that were held by education facilities. In one instance, NRC
         retrieved a plutonium/beryllium source from an unsecured area of a
         high school that was no longer licensed to hold the material. The
         material had been provided to the school in the 1960s. However,
         school officials were unaware of its existence when NRC retrieved it
         in 1989. At that time, NMMSS records did not contain information on
         this particular plutonium/beryllium source. In a more recent example,
         Security Operations officials, in pursuing other inventory
         discrepancies, determined that a university had two sealed sources of
         plutonium/beryllium that also were not contained in NMMSS.

         We did not attempt to determine whether there were other examples of
         materials held by licensees, or former licensees, but not recorded in
         NMMSS. However, we noted that information on sealed sources in
         licensees’ possession had not been sufficiently complete to track their
         location. Specifically:

         •   According to the contractor responsible for operating NMMSS,
             tracking sealed sources was not always a NMMSS objective.
             Rather, an ad-hoc system – the Sealed Source Registry – was used
             to track sources. The Sealed Source Registry did include the
             inventory data on the sealed sources at the high school and
             university previously discussed, but this information was not
             transferred and tracked in NMMSS. The use of the Sealed Source
             Registry was discontinued in 1984 at the direction of NRC.

         4
          Sealed sources contain nuclear material that has been packaged to be
         environmentally safe. They are generally used for testing and calibration.

Page 5                                                                Details of Finding
                              •   In the 1990s, NRC undertook a review of terminated licenses to,
                                  among other objectives, identify instances where incomplete
                                  accounting for nuclear materials provided to the former licensees
                                  required follow-up. NRC’s resulting report, published in 1999,
                                  indicated that the records associated with 108 sealed plutonium/
                                  beryllium sources were not sufficient to be sure of the materials’
                                  locations. While NRC follow-up determined that the 108 sealed
                                  sources had been disposed of properly, we believe that the
                                  accounting anomalies disclosed through this review underscore
                                  the need for accurate accounting of all sealed sources that remain
                                  with licensees.


Responsibilities for Loaned   Department Order 474.1A requires that nuclear material accounting
and Leased Materials          systems provide accurate nuclear materials information relating to
                              receipts, transfers, inventories, and shipments sufficient to establish a
                              complete audit trail from receipt through disposition. The order also
                              establishes NMMSS as the national nuclear materials database.
                              The Department owns the loaned or leased material and is responsible
                              for accepting the return and final disposition of the material. While
                              NRC is responsible for the safeguard and accountability controls at its
                              licensees, the Department is responsible for ensuring accurate
                              inventory data to meet the requirements of DOE Order 474.1A.


Needed Improvements           NMMSS inaccuracies occurred and persisted because, until very
to NMMSS                      recently, the Department had not provided adequate oversight of the
                              system and had no process in place to ensure that NMMSS included
                              all available information on loaned or leased nuclear material. The
                              Department had not confirmed inventory balances, conducted edit
                              checks, or reconciled inconsistent data. Although the Department
                              identified problems with NMMSS data prior to 1994, it was not until
                              2001 when, in response to our report on the Department’s financial
                              statements, Security Operations was tasked to correct these problems.

                              Specific management and NMMSS problems identified included the
                              following:

                              •   Merger of sealed source inventory data with NMMSS had not
                                  occurred. According to the NMMSS operator, inventory
                                  information from the Sealed Source Registry was not merged with
                                  NMMSS when the registry was discontinued in 1984.




Page 6                                                                             Details of Finding
         •   Confirmation of licensee inventory balances and continuing need
             had not occurred. According to Security Operations personnel, the
             Department had never comprehensively confirmed NMMSS
             inventory balances by querying NRC and its licensees, even on a
             test basis, about the actual amount of nuclear material held by
             licensees. Moreover, with the exception of the Office of Naval
             Reactors, the two past attempts by Departmental organizations to
             reconcile and resolve known discrepancies between NMMSS and
             licensee records were unsuccessful. A lack of appropriate
             Departmental oversight of loan and lease procedures as well as
             corporate knowledge at licensees of historical lease transfers
             impacted reconciliation efforts.

             Furthermore, while some materials had been at licensee facilities for
             decades, the Department had no procedures in place to confirm that
             the materials were still needed or to incorporate such information
             into its disposition plans.

         •   Adequate NMMSS edit checks were not in place. Database systems
             can and should be designed to detect obviously erroneous entries.
             While NMMSS has edit checks, they are not adequate to identify
             negative balances of Government-owned material or inventories
             associated with inactive or terminated licensees.

         •   Specific procedures for coordinating license terminations had not
             been developed. The examples cited in this report indicated the
             Department did not always have the necessary information
             regarding changes relevant to materials disposition, such as the
             closing of a licensee facility. In some instances, this information
             could have been obtained through more effective coordination with
             NRC. The Department, however, had not developed procedures to
             ensure that such coordination occurred.

         In commenting on a preliminary draft of this report, Security
         Operations officials pointed out that interagency coordination with
         NRC is complicated by the fact that NRC must consider the burden of
         additional reporting requirements on commercial facilities. In addition,
         responsibilities are split between NRC and certain States that have been
         delegated responsibility for overseeing the safeguarding of nuclear
         materials.




Page 7                                                        Details of Finding
Inaccurate Inventory     Without accurate NMMSS records, the Department cannot effectively
Records Hamper           administer the nuclear materials management program. Inaccurate
Management of Material   inventory records lessened the Department’s ability to detect stolen or
                         lost material and to effectively carry out its responsibility to dispose of
                         nuclear materials safely.

                         The Department’s chief concern in these matters must be protecting
                         public safety. Material balances recorded in NMMSS but no longer
                         held by the licensees raise serious security and safeguards concerns if
                         these discrepancies remain unresolved. Each sealed plutonium/
                         beryllium source contains from 16 to 80 grams of plutonium, and if one
                         were damaged, it would represent a serious health hazard.

                         By themselves, and if appropriate justification is provided, negative
                         balances records probably do not represent a safeguards concern; rather,
                         they suggest weaknesses in accounting controls, information system
                         design, and reduced Departmental oversight of material held by outside
                         entities. However, in light of the other examples cited in this report, the
                         Department should not assume that the public is fully protected until all
                         negative records are explained and corrected.

                         Finally, inaccurate and incomplete records limit the Department’s
                         ability to ensure that licensee-held materials are ultimately disposed of
                         safely and effectively. As an example, NMMSS records indicate that
                         about 3,000 metric tons of just one nuclear material – depleted
                         uranium – resides at licensee facilities. Eventually, the Department will
                         need to obtain this material back from the licensees and dispose of it.
                         Unless the associated NMMSS records are complete and accurate as to
                         material quantities and locations, the complexity and cost of the
                         Department’s disposal tasks could be greatly increased.


RECOMMENDATIONS          We recommend that the Director, Office of Security and Emergency
                         Operations:

                         1. Direct that inventory data from the defunct Sealed Source Registry
                            be reviewed and updated in cooperation with NRC and, where
                            appropriate, merged with NMMSS.

                         2. Conduct a comprehensive confirmation of all balances of
                            Government-owned nuclear materials held by domestic licensees
                            and establish a schedule for future periodic confirmations that
                            would include the full participation of the NRC. Resulting



Page 8                                                                         Details of Finding/
                                                                               Recommendations
                      information should be reconciled with NMMSS data and necessary
                      correcting entries made. Appropriate performance metrics should
                      be established to control the process.

                   3. Enhance edit checks in NMMSS to immediately inform both
                      governmental sponsors and other users that erroneous or anomalous
                      data entries have occurred.

                   4. In cooperation with NRC, develop and implement enhanced
                      procedures for the accounting of Government-owned materials.

                   5. Develop and implement a process to periodically confirm the
                      continuing need for Government-owned material at licensees and
                      incorporate this information into Departmental material disposition
                      plans.


MANAGEMENT         Management concurred with the finding and all recommendations and
COMMENTS           has developed a corrective action plan. Management’s comments are
                   included in their entirety at Appendix 2.


AUDITOR COMMENTS   Management’s comments and planned actions were responsive to our
                   recommendations.




Page 9                                                                        Comments
Appendix 1

SCOPE         The audit was conducted from April through August 2001 at
              Department Headquarters in Germantown, MD. We also interviewed
              officials at the NRC and the contractor responsible for the NMMSS. A
              field site visit was made to the National Institute of Standards and
              Technology in Gaithersburg, MD.


METHODOLOGY   To accomplish the audit objective we:

              •   Reviewed Departmental and NRC requirements for the control and
                  accountability of nuclear materials.

              •   Analyzed an NMMSS report dated September 30, 2000, to
                  determine the amount and types of nuclear materials located at non-
                  Department facilities. This information was also used to establish
                  the number of negative records included in the database.

              •   Held discussions with Department and NRC personnel that used
                  NMMSS information to control and account for nuclear materials to
                  determine whether the information was relied upon.

              •   Reviewed available documentation to determine if performance
                  measures associated with the accuracy of data in NMMSS or the
                  control and accountability of the Department’s loan or leased
                  nuclear materials existed.

              As noted in the report, we found erroneous and anomalous data in
              NMMSS. We did not, therefore, rely on NMMSS to draw conclusions
              about nuclear material quantities, locations, or movement. Instead, we
              used NMMSS data to identify issues that needed further audit follow-
              up. The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit.




Page 10                                                     Scope and Methodology
Appendix 2




Page 11      Management Comments
                                                                           IG Report No. DOE/IG-0529

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
       electronically through the Internet at the following alternative addresses:


             Department of Energy Office of Inspector General Home Page
                               http://www.ig.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
